No.

Supreme Court of tfir ®mtel» States
EDWIN ARTIS PETTAWAY,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
APPENDIX
COMES NOW PETITIONER Edwin Artis Pettaway and submits the attached
appendix pursuant to Supreme Court Rules.
Edwin Artis Pettaway
Petitioner
36222-001
P.O. Box 9000
Forrest City, AR 72336

i?

Date:
v-’~

26

APPENDIX A
ORDER & JUDGMENT OF THE COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
DATED 1-14-21

,**

United States v, Pettaway
United States Coart of Appeals for the Eleventh Circuit
January 14.2021, Decided; January 14,2021, Filed
No. 20-10187 Non-Argument Calendar
Reporter
842 Fed, Appx, 406 ♦: 2021 U.S. App. LEXIS 1005 **: 2021 WL 129648
UNITED STATES OF AMERICA, PlaintiffAppellee, versus EDWIN ARTIS PETTAWAY,
a.k.a. Fat, Defendant - Appellant.
Notice; PLEASE REFER TO FEDERAL RULES
OF APPELLATE PROCEDURE RULE 32.1
GOVERNING
THE
CITATION
TO
UNPUBLISHED OPINIONS.
Subsequent History': Rehearing denied by,
Rehearing denied by, En banc United States v.
Pettaway, 2021 U.S, App. LEXIS 8623 (11th Cir,
Ala., Mar. 24,2021)
Prior History; (**!( Appeal from the United
States District Court for the Northern District of
Alabama, D.C. Docket No. 2:18-cr-00586-ACAJHli-1.
Counsel: For UNITED STATES OF AMERICA,
Plaintiff - Appellee: Melissa R. Atwood. Michael
B. Billingsley, U.S, Attorney Service -Northern
District of Alabama, U.S. Attorney’s Office,
BIRMINGHAM, AL.
For EDWIN ARTIS PETTAWAY, a.k.a. Fat,
Defendant - Appellant: Michael Patrick Hanle,
Jaffe Hanle Whisonant & Knight, PC,
BIRMINGHAM, AL.
Judges: Before NEWSOM, BRASHER, and
ANDERSON, Circuit Judges.

Opinion
(MORI PER CURIAM:

F.dwin Artis Pettaway appeals his convictions for
possession with intent to distribute more than 28
grams of cocaine hose, in violation of 21 U.$.C. §§
841(a)(1), (b)(1)(B), and possession of a firearm in
furtherance of a drug-trafficking crime, in violation
of 18 U.S.C. § 924(c). Pettaway makes two
arguments on appeal. First, he argues that the
district court erred by denying his motion to
suppress evidence collected from his house and
vehicle. Specifically, he argues that the affidavit
supporting the search warrant contained stale and
misleading or false information, He also argues that
he was unable to challenge information in the
affidavit provided by a confidential informant
because the district court erroneously denied his
motion |**2] to disclose the informant’s identity.
Second, Pettaway argues that the district court erred
by denying his motion for judgment of acquittal
and contends that the jury lacked sufficient
evidence to convict him on either charge.

I. BACKGROUND
In the autumn of 2017, a confidential informant
advised the Birmingham Police Department that a
man known as "Fat" was distributing crack cocaine
from a house in Birmingham, Alabama. The
informant agreed to participate in a controlled
purchase of cocaine under the supervision of a
narcotics detective with the BPD. An initial
purchase was completed, after which the informant
presented the purchased drugs to the detective. The
informant also provided a description of Fat that
allowed the BPD to Identify the man as Edwin
Artis Pettaway. About three weeks later, the
detective and informant successfully executed

Pettaway Appendix A1

Page 2 of 6

842 Fed. Appx, 406, *408; 2021 U.$. App. LEXIS 1006, ‘*2

another controlled purchase at the house from the in violation of 18 U.S.C. § 924(c)(l)(A)(i).
Pettaway moved to suppress all evidence seized
man identified as Pettaway.
during the execution of the search warrant, He
Within two days of the second controlled purchase, argued that the warrant was inadequate to establish
the narcotics detective appiied for and received a probable cause, included facts that were
state-court search warrant for the house. A few "intentionally or recklessly misleading," and was
days later, the detective and a team of officers based on information provided by an unreliable
converged on the house to execute the search informant
without
sufficient
independent
warrant. Soon after entering |**3] the house, corroboration.
officers saw Pettaway emerge from a bedroom near
the front of the house. Pettaway was the only The district court held a hearing on Pettaway's
person seen coming from that room, and no one motion. At the close of evidence, the court orally
else was found in the room. Officers detained denied the motion, concluding that the officer's
Pettaway and approximately eleven other people affidavit established probable cause and did not
contain intentionally or recklessly misleading facts.
found throughout the house.
The court determined that the informant had
After detaining the occupants outside, officers "previously given accurate information" and that
searched the house. Two officers searched the front the detective had "independently verified"
bedroom that Pettaway was seen exiting. They information provided by the informant. The court
found several sizable chunks of suspected crack noted that Pettaway's |**S) driver's license linked
cocaine spread across the floor. Future testing him to the house, and the narcotics detective had
would confirm this substance as cocaine base observed Pettaway during the second controlled
weighing approximately 230 grams altogether. purchase. Moreover, the court found scant evidence
Officers also found a digital scale and a plate. showing that the house could not he entered by the
Officers further found (*409| several items piled front door, a key assertion that Pettaway had made
on top of the bed, including; a new vehicle tire; a in an attempt to show that the affidavit contained
beige satchel containing a loaded 9mm pistol, a false information. Indeed, the court concluded that
prescription bottle labeled with Pettaway's name, a bar supposedly barring entry through the door
Pettaway’s bank-issued debit card, three cellphones, could be removed. Finally, the court concluded that
and cash; a "Tuppcrware-typc box" containing the officer's inability to recall certain information
scales and Small bags; two more cellphones; loose during the hearing did not undermine those facts as
cash; and a set of car keys. Using the keys presented in the affidavit
recovered from the front bedroom, officers
accessed and searched an SUV parked behind the Pettaway proceeded to trial. In addition to the
house. The vehicle was registered to Pettaway. evidence recovered from Pettaway's house and
Inside the vehicle, officers |**4| found a loaded vehicle, the government presented testimony from a
AR-15—style rifle and Pettaway's driver's license. number of narcotics detectives who had
The license had been issued around one year prior participated in the search of Pettaway's house. The
to the search and bore the address of the house officers testified that the evidence recovered from
Pettaway's house and vehicle fit the pattern of a
being searched.
high-level drug distributer. At the close of the
A federal grand jury indicted Pettaway for government's evidence. Pettaway moved for a
possession with (he intent to distribute more than judgment of acquittal. The court denied the motion.
28 grams of cocaine base, in violation of 21 U.S.C. Later, after hearing testimony from the
§§ 841(a)(1) and (bXI)(B), and possession of a government's ease agent, Pettaway renewed his
firearm in furtherance of a drug-trafficking crime, motion for a judgment |**6| of acquittal, The

Pettaway Appendix A2

Page 3 of 6
842 Fed. Appx, 406, *409; 2021 U.S. App. LEXIS 1005, **6

motion was again denied. The jury convicted contain intentionally or recklessly misleading
information concerning either the reliability of the
Pettaway on both counts.
informant or what the officer observed during the
The court sentenced Pettaway to 114 months in two controlled purchases. The government argues
prison for possession with intent to distribute 28 jj,at because Pettaway's staleness argument was not
grams or more of cocaine base. The court ordered presented to the district court, it is reviewed for
that a consecutive 60-month prison term follow for plain error. Furthermore, the government argues
possession of a firearm in furtherance of a drugpepaWay has abandoned the argument that the
trafficking crime, followed by a 60-month term of afpiciavlt contained false frets because he has not
supervised release.
raised it on appeal, Pettaway did not file a reply.
1, The District Court Did Not Err in Determining
That the Affidavit Established Probable Cause

II. DISCUSSION
Pettaway presents two main arguments on appeal.
First, he argues that the district court committed a
reversible error by denying his motion to suppress
the evidence recovered from his house and vehicle,
and 1*410] his related motion to reveal the identity’
of the informant. Second, he argues that the district
court committed reversible error by denying bis
motion for judgment of acquittal. We address both
arguments in turn.
A, The District Court Property Denied Pettaway’s
Motion to Suppress

Pettaway argues that the district court committed
reversible error by deny ing his motion to suppress
evidence of drugs and firearms found within the
house and his vehicle. He contends that the
affidavit supporting tho search warrant lacked
"veracity'," that the informant supplying the
information lacked 1**7] a "basis of knowledge,"
and that the affidavit "lacked specificity."
Additionally, Pettaway argues that the district
court’s denial of his motion to disclose tire
informant’s identity prevented him from testing the
veracity and basis of the information supplied by
the informant at the suppression hearing. Finally,
Pettaway argues that the information contained in
the search warrant application was stale.

We apply a mixed standard of review to decisions
involving |**8| motions to suppress. We review
findings of fact for clear error and the application
of law tothosefacts do novo. United States v,
Lewis, 674 F.3d 1298, 1302-03 (11th Cir. 2012).
We construe facts in the light most favorable to the
prevailing party below, affording substantial
deference
to the factfinder’s credibility
determinations, id, at 1303, and "give due weight to
inferences drawn from those facts by resident
judges and local law enforcement officers." United
States v. Jiminez, 224 F.3d 1243, 1248 (11th Cir.
2000) (quoting Ornelas v. United States, 517 U.S,
690, 699, 116 S. Ct. 16S7, 134 L. Ed. 2d 911
(1996)). Whether the facts so construed establish
probable cause for a search warrant to issue is a
legal conclusion we review de novo. Jiminez, 224
F.3dat 1248.

"Probable cause to support a search warrant exists
when the totality of the circumstances allows a
conclusion that there is a fair probability of finding
contraband or evidence at a particular location,"
United States v. Brundidge, 170 F.3d 1350, 1352
(1 Hh Cir. 3999) (per curiam). We give "great
deference" to the determination of probable cause
by a district court. Id. An informant's veracity,
reliability’, and "bases of knowledge" are relevant
considerations in the totality-of-the-circumstances
analysis and do not operate independently. id. at
The government responds that the district court 1352-53. A deficiency in one of these
properly concluded that the supporting affidavit considerations may be compensated for by a strong
established probable cause and that it did not showing as to the oilier considerations, id.

Pettaway Appendix A3

Page 4 of 6
642 Fed. Appx, 406, *410; 2021 U.S. App. LEXIS 1005. **8

Here, the district court did not clearly err when it
found that the |**9J search warrant affidavit
established probable cause to search (he residence
listed in the search warrant application. Viewed in
the light most favorable to the government, the
facts showed that the detective was approached by
an informant who had previously |*41l| given
him reliable information and that the detective
corroborated the informant's allegations by
arranging two controlled purchases at the house.
The controlled purchases confirmed the veracity
and reliability of the informant's tip, and the
detective also conducted independent research to
supplement the information that the informant gave
to him. The second controlled purchase preceded
the detective's application for a search warrant by
less than 48 hours. Thus, the totality of the
circumstances certainly suggested a "fair
probability" of finding crack cocaine at the house,
Bnmdidge, 17GF.3d at 1352.
2, The District Court Did Not Err in Denying the
Motion to Disclose the Informant's Identity
We review decisions to disclose the identity of
confidential informants for abuse of discretion.
Fiores. 572 F,3d at 1265, Knowledge of the
identity of a confidential informant is typically
privileged. However, where the disclosure of an
informant's identity is relevant and helpful to
the 1**10] defense of an accused or is essential to a
fair determination of a cause, the privilege must
give way. Id. We consider three factors when
conducting this inquiry: (i) the extent of the
informant's participation in the criminal activity, (2)
the directness of the relationship between the
defendant's asserted defense and the probable
testimony of the informant, and (3) the
government’s interest in nondisclosure. Id. The
government’s interest may be proven by showing
that disclosure might endanger the informant or
other investigations. Id. The burden is on the
defendant to show' that the informant’s testimony
would significantly aid In establishing an asserted
defense. United States v. Gutierrez, 931 F.2d 1482,
1491 (11th Cir. 1991). Mere conjecture about the

possible relevance of the testimony is insufficient
to compel disclosure, Id.
The district court did not abuse its discretion when
it denied Pettaway’s motion to require the
government to produce the informant's identity.
Pettaway neither argues that the informant was
involved in the criminal activity nor indicates how
the informant's testimony would support his
defense. He merely' contends that had the district
court disclosed the informant's identity, he could
have been in a better position toj**ll] test the
veracity and basis of the information that he
provided to the detective, which in turn supported
the application for a search warrant. This kind of
conjecture about the possible relevance of the
informant's testimony is insufficient to compel
disclosure, Gutierrez,931 F.2d at 1491.
3. Pettaway Cannot Show, on Plain Error Review,
That Facts Contained in the Search Warrant
Application Were Stale
Because Pettway did not argue before the district
court that the facts supporting the search warrant
application were stale, we review this assertion
under the plain error standard. United States v.
Andres, 960 F.3d .1310, 1316 filth Cir. 2020). To
prevail under this standard, Pettaway must show:
"(1) an error occurred; (2) the error was plain; (3) it
affected his substantial rights; and (4) it seriously
affected the fairness of the judicial proceedings. An
error is ‘plain’ if controlling precedent from the
Supreme Court or the Eleventh Circuit establishes
that an error has occurred." Id. (internal quotation
marks and citations omitted).
The staleness doctrine requires that the information
supporting the government's application for a
search warrant show that prohahlc cause exists at
lhe time 1hat ,he warrant issues, United States ,,
BervaML 226 F.3d 1256. 1264 (llth Cir. |*412j
2000). Here, Pettaway has not shown that the
district court plainly (**12] erred when it denied
his motion to suppress based on the timeliness of
the information contained in the application for the
search warrant, The supporting affidavit and the

Pettaway Appendix A4

Page S of 6

842 Fed, Appx. 406, *412; 2021 U.S. App. LEXIS 1006, "12

detective's live testimony both indicate that the
application for the search warrant was submitted
within 48 hours of the second controlled purchase.
Thus, the evidence before the court established
probable cause to believe that drugs would be
found in the house as of the time that the warrant
was issued.
If, The District Court Property Denied Pettaway 's
Motionfor Acquittal
On appeal, Pcttaway also argues that the district
court committed reversible error when it denied his
motion for judgment of acquittal based on the
sufficiency of the evidence. The government
responds that, when viewed in the light most
favorable to the jury's guilty verdicts, the evidence
supported Pettaway's convictions on both counts.
We review a challenge to the sufficiency of the
"evidence supporting a July's guilty' verdict" dc
nova, hut review the trial evidence in the light most
favorable to the government. United States v.
Stahtman, 934 F.3d 1199, 1224 n.12 (Uth Cir.
2019) (citing first United Stales v. Keen, 676 F.3d
981,994 (11th Cir. 2012); and then United States v.
Henderson, 893 F.3d 1338, 1348 (11th Cir. 2018)).
We are required to draw "ail reasonable factual
inferences in favor of the verdict" and affirm if
there is (**13] "any reasonable construction of the
evidence" that would support the juiy’s conclusion
that the defendant is guilty beyond a reasonable
doubt. Stahtman, 934 F,3d at 1226 (internal
quotation marks and citations omitted).
It is unlawful for any person to knowingly or
intentionally "possess with intent to manufacture,
distribute, or dispense a controlled substance." 21
U.S.C. § 841(a)(1). To convict a defendant under
Section 841(a)(1) the government must prove
knowledge, possession, and intent to distribute.
United States v. Paate, 878 F.2d 1389, 1391 (11th
Cir, 1989). All three elements can be proven by
direct or circumstantial evidence, id. at 1391-92.
Constructive possession is sufficient and "can be
established by showing ownership or dominion and

control over the drugs or over the premises on
which the drugs are concealed." id. intent to
distribute can be proven by showing the quantity of
the drug and the existence of things commonly used
in connection with its distribution, id.
When viewed in the light most favorable to the
government, the evidence sufficiently supports the
verdict that Pcttaway possessed over 28 grams of
crack cocaine with the intent to distribute. The
record indicates that Pcttaway was the only one to
exit the room where police found over 230 grams
of crack cocaine and supplies used to re­
package |**14) lire drug for sale. Additionally, the
jury' heard testimony that the amount of crack
cocaine found was consistent with a "higher-level
distributor.” Moreover, officers found Pettaway's
hank card and prescription pill bottles with his
name on them in the same room as the drugs. Thus,
there was sufficient evidence to prove that
Pettaway possessed over 230 grams of crack
cocaine with the intent to distribute it.
Likewise, it is unlawful to use a firearm in
furtherance of a drug-trafficking crime. 18 U.S.C, §
924(c). Under Section 924(c), we have required
that "the prosecution establish that the firearm
helped, furthered, promoted, or advanced the drug
trafficking." United States v. Timmons, 283 F,3d
1246,1252 (11th Cir. 2002). the mere presence of
a firearm "within the defendant's dominion and
control during a drug trafficking offense is not
sufficient by (*413] itself to sustain a (Section]
924(c) conviction." Id at 12S3. The government
must show a nexus between the firearm and the
drug operation, which can be established by "the
type of drug activity that is being conducted,
accessibility of the firearm, the type of the weapon,
whether the weapon is stolen, the status of the
possession (legitimate or illegal), whether the
firearm is loaded, proximity' to the drugs or drug
profits, and the time and circumstances 1**15]
under which the gun is found," id A defendant's
possession of a firearm can be shown by
demonstrating that he actually possessed the
firearm or that he constructively possessed it, which

Pettaway Appendix A5

Page 6 of 6

842 Fed. Appx. 406, ‘413; 2021 U.S. App, LEXIS 1005, “15

means he had "ownership, dominion, or control
over an object itself or control over the premises in
which the object is concealed." United States v.
Villarreal, 613 F,3d 1344, 1359(11th Cir. 2010),
When viewed in the light most favorable to the
government, the evidence sufficiently supports the
verdict that Pettaway knowingly possessed the
firearm in furtherance of a drug trafficking crime.
The record indicates that Pettaway owned the house
and the vehicle parked behind it, the vehicle was
registered to the address of that house, and
Pcttaway’s driver's license listed that same address
as Pettaway's residence. In addition, Pettaway was
the only individual seen exiting the room in the
house where the pistol was found. The pistol was
found in close proxim ity to a large amount of crack
cocaine, scales, re-packaging materials, cash, a
bank card with Pettaway's name on it, and multiple
pill bottles displaying Pettaway's name. Thus, there
was sufficient evidence from which a reasonable
jury could have found that Pettaway possessed the
firearm and that the firearm was 1**161 used in
furtherance of a drug-trafficking crime.
III. CONCLUSION
For the foregoing reasons, the district court is
AFFIRMED
End orDoctimCfil

Pettaway Appendix A6

APPENDIX B
JUDGMENT OF THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
ENTERED 1-15-20

Case 2:18-cr-00586-ACA-JHE Document 69 Filed 01/15/20 Page lot 5

FILED
2020 J«n-15 PM 03:34
U.S. DISTRICT COURT

AO 245 S (Rev. 1/98)(N.O.AIa. rev.) Sheet 1 - Judgment In a Criminal Case

UNITED STATES DISTRICT COURT
Northern District of Alabama
UNITED STATES OF AMERICA
Case Number 2:18-CR-586-ACA-JHE-1

v.
EDWIN ARTIS PETTAWAY
Defendant.

JUDGMENT IN A CRIMINAL CASE
(For Offenses Committed On or After November 1,1987)
The defendant, EDWIN ARTIS PETTAWAY, was represented by Michael P Hanle.
The defendant was found guilty on counts 1 and 2 after a plea of not guilty. Accordingly, the defendant
is adjudged guilty of the following counts, involving the indicated offenses:
TIUe & Section
21 U.S.C.§ 841(a)(1)
18 U.S.C. § 924(c)(1)(A)(l)

Nature of Offense

Count Numbers

Possession with Intent to Distribute 28 Grams or More of a Mixture 1
and Substance Containing a Detectable Amount of Cocaine Base
Possession of a Firearm In Furtherance of a Drug Trafficking
2
Crime

As pronounced on January 9,2020, the defendant is sentenced as provided in pages 2 through 5 of this

Judgment. The sentence is imposed pursuant to the Sentencing Reform Act of 1984.
It Is ordered that the defendant shall pay to the United States a special assessment of $200.00, for counts
1 and 2, which shall be due Immediately.
It Is further ordered that the defendant shall notify the United States Attorney for this district within 30 days
of any change of name, residence, or mailing address until all fines, restitution, costs, and special assessments
imposed by this Judgment are fully paid.

BONE and ORDERED this January 15,2020.

ANNEMAR1E CARNEY AXON
U.S. DISTRICT JUDGE

Pettaway Appendix B1

Case 2:18-cr-00586-ACA-JHE Document 69 Filed 01/15/20 Page 2 of 5
AO 245 S (Rev. 1/98)(N.O,Ala, rev.) Sheet 2 - Imprisonment

Judgment-Page 2 of 5
Defendant: EDWIN ARTIS PETTAWAY
Case Number: 2:18-CR-586-ACA-JHE-1
IMPRISONMENT
The defendant Is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned
fora term of 114 months as to Count One, plus 60 months as to Count Two. The sentence in Count Two shall run
consecutively to the sentence imposed in Count One and any other sentence; a total of 174 months.
Pursuant to USSG § 5G1,3(C), the sentence shall run concurrently with the yet-to-be imposed sentence
In Jefferson County Circuit Court cases CC 2018-4159, CC 2018-4162 and CC 2018-4160.
The sentence running also concurrently with any other yet-to-be imposed sentences.

The Court makes the following recommendations to the Bureau of Prisons:
That the defendant be housed in a facility as close as possible to Birmingham, At, while taking into
consideration his medical needs.

The defendant is remanded to the custody of the United States Marshal.

RETURN
I have executed this Judgment as follows;

at

to
Defendant delivered on
with a certified copy of this Judgment.

United States Marshal
By
Deputy Marshal

Pettaway Appendix B2

gg xipueddvAeMeuecj

spepuodap no poddns pnuj r»A <8t
•pejepi lapueuy jo peuieAgoAug sseugsnq e sBq pepuejep eqi qoiqm u| sgueuieejBa JO/pue 'suo|pB||qo 'siqep
'spsse sseugsnq jo imiosjed BuipjaBej uogpuijojui lepueuy jeqp pua 'sasusdxa pua oujooui jo uoipiueuinoop ’sujmej xei ewoaui
'spjooej jpaq 'uogieuuojug ypejo jo esaaiaj joj uogiazpoqine 'oj patpii pu s| pq 'epnpug Zeui uogpuuojug |B|auauy 'uogsgMedns
jo suompuoo eqi 0) pepiej jeoyjo uopeqojd eqi Zq pepenbej se uoneuuojug |B|oueuy esopsgp Znnjqinji pus Zginj pnui noA ill
•>|Sjj eqi poqa uosiad eqi peygpu e>abi| no/ pqi uuyuoo pua uosjed
eqi pepoo Zaiu jeoyjo uoneqcud eqj. -uonorupu| jam qigm Z|dujoo isnuj no/ pua 'usp eqi inoqe uosjed eqi Zjyou oi no/ ajinbaj
Zauu jeoyjo uopBqojd sip '(uopezpB&io ue Bugpnpug) uosjad jeqpue 0) yep a esod no/ pqi seuiuuiepp jeoyjo uogaqoid eqi J| (9j
pnoo eqi jo uogssguiiad eqi BugipB pj|) inoqigm
luatuiojug jo aojnos ueuinq pgiuepyuoo a sa pa 01 ZoueBe peuieojojue mb| a qpM peiueej6B /ua eyauj jo pa pu pmu noA (SI
■sjnoq zi ugqiim jeoyjo uogpqojd eqi Zjgpu pnuj no/ ‘jeoyjo peuisojojus meg b /q peuogpenb jo pepaue bjb no/ j| (pi
•jeoyjo uogpqaid
aqi p uogssgujjed eqi BugueB pjy poqigm uosjed pqi qpnn pejaiug jo eieogunuiuioo Z|6ugmou>i pu pnui no/ 'Zuogej a jo pepgauoo
uaeq seq euoeuios mou>g no/j| -/hahob lauguipo ug peBeBue sg mouig no/ euoeups qigmpajaiui jo eiao|unujuioo pu isnui noA (El
'eBuaqo pepedxa jo aBuaqo a p ejBMe 6u|ujooeq
p sjnoq zi u|qi|M jeoyjo uopeqojd eqi /jpou pnui no/ 'saouapujnojp pepdpnueun 01 enp eppsod iou s| aouanpa ug s/ap
01 isaag ia jeoyjo uonaqojd eqi Bug/jgpu jg •eBuaqo eqi ejojeq s/ep 01 paei ja jaoggjo uoqeqojd eqi /||pu isnuj no/ tsengggqisuodsej
qof eqi jo uomsod eqi se qons) 410m jno/ inoqB Bugqi/ue jo pom no/ ejaqm eBuaqo oi uap no/ j| los Bupp uiojj no/
sesnoxe jeoyjo uogpqojd eqi ssepn ’lueui/ojduie euijmnj puyoiM isnui no/ 'luaui/ogduie eiu|i-||nj anaq pu op no/ j| -os Bupp
may no/ sesnoxe jeoyp uogpqojd eqi ssepn 'lueiu/ogdup p ed/i injmei e ie (yeem jed sjnoq oe iseeg ie) eaip ignj pom isnuj noA (Zl
•me)A u|B|d ug senjesqo eqs jo eq pqi uoisgAjedns jno/ p suogigpuoo eqi /q penqgqojd suiei; /ue e)|S)
01 jeoyp uoyeqojd eqi tgujjed isnui no/ pua ‘ejeqmesge jo euioq jno/ ia eui|i /ua p no/ipgA 01 jeoyjo uogiaqojd eqi mo||e isnuj noA (u
(•eouapgsaj jno/ eBuaqo no/ jg (0) pua (q)zt?ot>
§ ‘D'S'fl 81 J° suogsgAOjd eogpu eq) q)|« Bug/|duioo joj episuodsej sg eoyjo uogjeqojd eqi 'esueqo 6ugqoyjeji Brup a jo eoue|0(A
p auipo a p pepgAuoo ueeq enaq no/ j|) eBuBqo pepedxe jo eBuaqo a p sjeme 6u|uiooeq p einoq zi ugqigm jeagjjo uoqeqojd
eqi /jgpu isnui no/ •seoueisuinojgo peiedpgiueun 01 enp eiqpsod pu sg eouBApe ug s/ep oi paei p jeoyjo uogiaqojd eqi Bug/ggpu
II -eBuaqo eqi eipjeq s/ap oi pae| p jeoyp uogjaqoid eqi /jyou isnui no/ '(q)|M ongg no/ eidoed eqi se qons) siusui86ubjib
Bujaii jno/ inoqB 6uiqi/ua jo OAgg no/ ejeqm eBuaqo 01 uegd no/ -jeoiyo uogiaqojd eqi /q peAOJdda eoep a p engi isnui noA (01
•jeoyjouogieqojd eqi/qpeqsesuonsenb eqi/||rqqinj)jemsua isnuj noA (6
•uopiAjedns p suogigpuoo eqi 01 peiagej jeoygo uogiaqojd eqi p suonorupug eqi mogp] isnuj noA (8
■jeoygo uoipqojd eqi jo ynoo
eqi uiojj uoissguued fkigipB pjy inoqigm eppei 01 pezpoqinB eja no/ ejeqm ppisgp gagogpnt iBjspej eqi eAaeg /|6u|mouq pu isnui noA (1
•(pgjisgp jeqpue ug uiajBoid 8|qajaduioo jo) (dIVS) uiajBoid uonueweiui esnqv eouapqns eqi ug peoegd eq
ggaqs no/ 'goqooie p esn eAgsseoxe p eouepgne jo pej Bnjp eAyisod a uiojj Bumnsej jo umoqs esnBO pooB joj uogsg/qedns p poped
eqi Bupnp pejepe jepjo ynoo a uodn peseg os op 01 /niiqa eqi enaq pu op no/ seuguippp jeoyjo uogiaqojd eqi ssegun Buysei
6wp jo isoo eqi 01 epqppoo pnui noA 'pnoo eqi Zq pieuguuapp se 'jeyeejeqi sgsei Brup 0|poped omi paeg p pua iuauiuospdui|
uiojj esaeiej jo s/ap gj ugqigm isei Brup euo 01 quiqns pnuj noA -eouaisqns peigojpoo a jo esn mjmeiun /ub uioig ugajjej isnui noA
(9
•eoueisqns pegiojiuoo a ssessod ZunjMBgun pu pnui noA {§
•uuaejgj a jo uopsessod joj Zioppuauj sg uogsgAiedns jo uogpooAey -(SJ8S81
jo snqaipunu SB qons 'uosjed jsqioua 01 qpep jo Zin(u| /|gpoq 6u|snao jo esodind oypeds eqi joj 'peygpouj sam jo 'peu6gsep SBm
pqi BugqiZua “e-|) uodaem snojeBuap jo 'eo|Aep engpruisep ‘uongunuiuia 'uiJBajy a 01 sseooa enaq jo 'ssessod 'umo pu pnuj noA (p
•euipo ieoog jo •epp 'iejepej jeqpue igpuuoo pu isnuj noA (E
•peiorupug se jeoyjo uogiaqojd eqi 01 podej isnui no/ pua 'jeoyjo uonaqojd eqi 0) podai 0) ueq/A
pua moq inoqe jeoyjo uogpqojd eqi jo pnoo eqi uiojj suoyoruisug eAgeoej ygm no/ 'eoyjo uogpqojd eqi 01 Bugpodej /namug jeqv (s
■Quiajj euigi luejejjgp a ugqijAA jo eoyjo uonaqojd pejejjgp a 01 yodei 01 no/ spruisug
jeoyjo uoipqojd eqi sseiun '{pejepio si esaegej pasiAjedns jg) /poisno ujojj paseeiej jo (uoyaqoid uo peoagd j|) peouepes ejem no/
euin eqi jo sjnoq zi uiqi|M eppei 01 pezpoqpa eje no/ ejeqm pppgp lepgpnf gejepej eqi ug eoyjo uogiaqojd eqi 01 podej pnuj noA (l
nueuiBpnp sgqi oi pansjnd esaeiej pesgAjedns uo sg luepuejep eqi eigq/A

asv3i3M oasuvaadns do snoixiqnoo aavaNViS
'9se8|9j pesj/asdns jo suompuoo
IBpeds /ue pue suompuoo pjepuejs eq) |0 Zdoo e mg// juepuepp ©Ml ep|AOjd ||ei|S eogyo uoiieqojd ©Ml
•sjeeZ g jo lUJQi e joj ©se©|©J pesgAjedns uo eq neqs luepuejep eqi 'iueuiuosgjdiu| ujojj eseegej uodn
3SV113H Q3SIAU3dnS
l-3Hr-VOV-98S-HO-8l.:Z :jequinN eseo
AVMV113d SlitiV NIAAQ3 :}uepu8j8Q
S jo E eBed--)U9Ui6pnr
esaepy pestAjadng - e leeqs ('aoj •aiva'NK86Jl '*ay) S

g jo g a6ed 02/SX/X0 paild 69 juaainooa 3Hr-VQV-98SOO -<o-8X:z aseo

OV

*g xjpueddv Ae/uveued

(os op oj /^ntqe apt enap pu op noA sau|uiu8t&p jeoyp uoyaqojd am ssajun aoua)8|sqns p (soo apt
ted }smu noA pue) jaoyp uopeqojd apt p uoisiAjedns aAmsiuiuupe apt japun sAap 081 m dn joj jatueo suoRoajjoo Anunwujoo a u|
peoB|d (o) jo/pub :(os op ot AiwqB am oabp pu op noA seuiouetep jeoyp uoyBqojd am ssatun Buponuoai p poo apt Asd pnai noA
pue) jeoyp uoyeqojd apt p uo|S|AJ8dns aApejp|U{iupe apt japun sAap Qg p ploped uinuiixeuj e joj Buponuoai uopsooi oi pefqns
uopuapp aoiop uo paoB|d (q) Peoyp uoyeqojd apt p uoisiwedns aA|)Bj}S|u|oip8 apt japun uuejBojd uopejBdajd tueuiAoiduie jo
uoiponpe |e»ueuy b puaps o) pautnbej (e) :aq Aeui noA 'suoyeBjiqo |BpuBuy p speiuAed ui tuanbuipp sAep os uepj bjouj auiooaq
noA {| -aai juaiussesse jo 'uoitnmsaj ‘auy b Aed o( Annqe jnoA toajp tp6|uu pm seouepujnojio oiuiouoos jnoA u| aBuepo Aue p
jaoyp uoyeqojd apt Ajipu vsnm rtoA 'japprid eseo apt u| pagoday aouapee am ujojj 6umnsej uo[te6nqo Ajepuoui Aub p eouepq
am Apyes ot suoyeBiiqo ppueuy pejepjo-pnoo Buiweouoo sejnpeoojy pue saioipy s.eoyp uoyaqoid am mi^/idujoa tsnui no/, (61

3SV313U aastAaadns do snoiuqnod aavaNvis do NOiivnNixNoa
l.-3Hr-VOV-98§-MO-8t:2 :JsqujnN ©seo
AVMVl±3d SlldV NIMQ3 :}uepuaiaa
gjo^eBe^iueuiBgr^
esesiey pas|/uedns p suoyipuoo pjapuBts p uoyenuyuot) - e leaps (aoi ‘B|va'N)(86/t Asy) s SV2 OV

g jo t? ©6ed 02/ST/T0 P©l!d 69 juaatnooa 3Hf-V3V-98900-JO-8i:Z ©seq

Case 2:18-cr-00586-ACA-JHE Document 69 Filed 01/15/20 Page 5 of 5
AO 245 S (Rev. 1/98)(N.D.AIa. rev.) Sheet 3 (conM) - Supervised Release

Judgment-Page 5 of 5
Defendant: EDWIN ARtlS PETTAWAY
Case Number: 2:18-CR-586-ACA-JHE-1
SPECIAL CONDITIONS OF SUPERVISION
While the defendant Is on supervised release pursuant to this Judgment:
1)
2)
3)

4)

5)

You must cooperate In the collection of DNA under the administrative supervision of the probation officer.
You must not use or possess alcohol.
You must participate In the Substance Abuse Intervention Program (SAIP) (or comparable program In the district of supervision)
under the administrative supervision of the probation Offloer, and you must oomply with the requirements and rules of the program.
This program Indudes the following components: (a) testing by the probation officer or an approved vendor to detect prohibited drag
or alcohol use; (b) substance abuse education; (c) outpatient substance abuse treatment, which may Indude Individual or group
counseling, provided by the probation office or an approved vendor, and/or residential treatment; (d) plaoement in a community
corrections center (halfway house) for up to 270 days; and/or (e) home confinement subject to electronic monitoring for up to 180
days. You must contribute to the costs of partldpatlon unless the probation offloer determines you do not have the ability to do so.
You must partldpate in a oognlttve behavioral treatment program designed to promote responsible thinking and to Increase problem
solving and sodal skills under the administrative supervision of the probation officer, and you must oomply with the requirements
and rules of the program. You must contribute to the cost of treatment unless the probation offloer determines you do not have the
ability to do so.
You must participate In an educational services program under the administrative supervision of the probation officer, and follow the
requirements and rules of the program. Such programs may Include high school equivalency preparations, English as a Second
Language classes, and other classes designed to Improve your proficiency In skills such as reading, writing, mathematics, or
computer use. You must contribute to the cost unless the probation officer determines you do not have the ability to do so.

Pettaway Appendix B5

APPENDIX C
ORDER OF THE COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
DATED 3-24-21

United States v. Pettaway
Un ited States Court of Appeals for the Eleventh Circuit
March 24,2021, Filed
No. 20-10187-BB
Reporter
2021 U.S. App. LEXIS 8623 *
UNITED STATES OF AMERICA, Plaintiff Appellee, versus EDWIN ARTIS PETTAWAY,
a,k.a. Fat, Defendant - Appellant.

End of Document

Prior History: J*l] Appeal from the United Stales
District Court for the Northern District of Alabama.
United States v. Pettaway, 2021 U.S. App. LEXIS
1005,2021 WL 129648 (11th Cir. Ala., Jan. 14,
2021)
Counsel: For UNITED STATES OF AMERICA,
Plaintiff - Appellee: Melissa K. Atwood, Michael
B. Billingsley, U.S. Attorney Service - Northern
District of Alabama, U.S. Attorney's Office,
BIRMINGHAM, AL.
For EDWIN ARTIS PETTAWAY, a.k.a. Fat,
Defendant - Appellant: Michael Patrick Hanle,
Jaffe Hanle Whisonant & Knight, PC,
BIRMINGHAM, AL.
Judges: BEFORE: NEWSOM, BRASHER, and
ANDERSON, Circuit Judges.
Opinion

ON PETITIQNfSl FOR REHEARING AND
PETITION!S) FOR REHEARING EN BANC
PER CURIAM:
The Petition for Rehearing En Bane is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Panel Rehearing
is also denied. (FRAP 40)

Pettaway Appendix C1

APPENDIX D
USDC ORDER DENYING MOTION TO SUPPRESS
ENTERED 3-20-19

FILED

Case 2:18-cr-00586-ACA-JHE Document 41 Filed 04/09/19 Page 1 of 84

2018 Apr»09 AM 08:23
U S DISTRICT COURT
N.D. OF ALABAMA

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ALABAMA.
SOUTHERN DIVISION

Government

UNITED STATES OF AMERICA

CASE NO. 2:18-cr-586-ACA-JHE

V.

Defendant

EDWIN ARTIS PETTAWAY

TRANSCRIPT OF SUPPRESSION HEARING
BEFORE HONORABLE ANNMARIE CARNEY AXON
UNITED STATES DISTRICT JUDGE
March 20, 2019
Birmingham, Alabama

APPEARANCES:
REPRESENTING THE GOVERNMENT :

William GOtt Simpson, Esquire
U.S. Attorney’s Office
1801 4th Avenue North
Birmingham, AL 35203

REPRESENTING THE DEFENDANT:

Saninie D. Shaw, Esquire
Sanmie D. Shaw Attorney at Law
2107 5th Avenue North, Suite 301
Birmingham, AL 35203

ALSO PRESENT:

COURT REPORTER:

Edwin Artis Pettaway, Defendant

Margaret Wasmund, RDR, CRR, CRC
1729 5th Avenue North, Suite 104
Birmingham, AL 35203
601-329-6113
margaretwasmund@gmail.com

Pettaway Appendix D1

Case 2:18-cr-00586-ACA-JHE Document 41 Filed 04/09/19 Page 2 of 84

2

TABLE OF CONTENTS

WITNESSES FOR THE GOVERNMENT:
DANIEL WALLS
Direct Examination

3

Exhibit G-6

ll

Exhibit G-l

20

Exhibit G-2

21

Exhibit G-5

27

Exhibits G-3 and G-4

28

Cross-Examination By Mr. Shaw:

28
69

Government Rests
WITNESSES FOR THE DEFENDANT:
LAMAR PETTAWAY
Direct Examination By Mr. Shaw:

...69

............................

75

Cross-Examination By Mr. Sittpson:

75

Redirect Examination By Mr. Shaw:

..80

Exhibit D-l

Defendant Rests

..............................

81
81

Ruling

Pettawav Appendix D2

Case 2:18-cr-00586-ACA-JHE Document 41 Filed 04/09/19 Page 81 of 84

81

PETTAWAY - REDIRECT
1

A,

He never lived there.

2

Q.

Where was he living during the November 20177

3

A.

I think he was living in Center Point.

4

Q.

Who did he live with?

5

A.

He lived with his girlfriend.

6

Q.

And who else?

7

A.

His children.

8

Q.

Okay.

9

Did his girlfriend or children ever live at

6627 1st Avenue South?

10

A.

NO.

11

Q,

Mr. Pettaway, does Mr. Pettaway own 6627 1st Avenue South?

12

A.

Yeah, he do.

13

Q.

Do you know the purpose of him owning that house?

14

A.

I think it was a boarding house or something like that, he

15

was saying.

16

MR. SHAW:

17

MR. SIMPSON:

Nothing further, Your Honor.

18

THE WITNESS:

I'm done?

19

THE COURT:

20

MR. SHAW:

22

THE COURT:

24
25

Thank you.

Mr. Pettaway, you are finished now.

Thank you.

21

23

That's all I have.

Mr, Pettaway rests, Your Honor.
Thank you.

Just a minute.

(Pause.)
THE COURT:

I'm going to deny the motion.

I think

your motion, when you filed it, said that the affidavit failed

Pettaway Appendix D3

Case 2:18-cr~00586-ACA-JHE Document 41 Filed 04/09/19 Page 82 of 84

82
1

to support probable cause, and I don’t agree with that. And

2

then you also said that the facts were intentionally or

3

recklessly misleading, and I do not find that.

4

I think that, as a preliminary matter, the — Detective

5

Walls has shown that the confidential informant that was used

6

to do the controlled buys, and upon which the information was

7

based for the search warrant, had previously given accurate

8

information.

9

They had a history of working together, so it is not like

10

it’s an unverified person off the street that he based this

11

information on. Also, too, he independently verified that

12

information the confidential informant gave him. Moreover,

13

according to the detective's testimony today, there had been

14

previous complaints about this particular home and seme

15

suggestion that there were drug sales previously conducted at

16

the home.

17

I will say — so I think that the affidavit does establish

18

a link between the defendant and the house, as does the

19

driver's license. And I believe that Mr. Walls's — Detective

20

Walls's -- forgive me -- testimony is credible when he says

21

that he observed him at the residence on the second controlled

22

buy -- on the date of the second controlled buy.

23

that the affidavit is contradictory to his testimony today.

24
25

I do not find

And there is no evidence of what the door looked like on
the date the search warrant was executed.

Pettaway Appendix D4

I appreciate

Case 2:18-cr-00586-ACA-JHE Document 41 Filed 04/09/19 Page 83 of 84

83
l

Mr. Pettaway' s testimony that this is what it looked like a few

2

days ago or a couple weeks ago, but that's not what it looked

3

like — there's no evidence that that's what it looked like

4

then, other than the fact that he testified that he had done it

5

a while back or a long time ago. And, as I see in the picture

6

that you've provided, it is clear that those things can -- that

7

that bar can be taken down.

8
9

So I'm going to deny your motion. And let me make sure I
didn't leave anything out. Oh, I will also note that, although

10

there was a question about whether or not Mr. Pettaway, the

11

defendant Mr. Pettaway, was at the house on the occasion of the

12

first search warrant, the affidavit does identify that he was,

13

in fact, there. Although Detective walls could not

14

independently recall that fact today, it is in his affidavit,

15

which I would assume — I have no evidence to the contrary that

16

he did not review that search warrant and any file on that

17

search warrant in preparation for that affidavit.

18

motion is denied, and we'll allow the evidence in.

19

MR. SHAW: Thank you, Your Honor,

20

MR. SIMPSON: Thank you, Your Honor.

21

(Proceedings concluded at 11:48 a.m.)

22
23
24
25

Pettaway Appendix D5

So the
Thank you,

APPENDIX E
USDC ORDER DENYING DISCLOSURE OF NAME OF Cl
ENTERED 3-7-19

FILED

Case 2:18-cr~00586-ACA-JHE Document 34 Filed 03/07/19 Page 1 of 4

2018 M»r-07 AM 08:17
U.S. DISTRICT COURT
N.D. OF ALABAMA

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
UNITED STATES OF AMERICA,
V,

EDWIN ARTIS PETTAWAY,
Defendant

)
)
)
)
)
)
)

2:18-cr-00586-ACA-JHE

ORDER
On February 18, 2019, Defendant Edwin Artis Pettaway ("Defendant" or “Pettaway”)
moved for an order compelling the disclosure of the identity of a confidentialmformant ("Cl")
who allegedly provided information supporting a search warrant at issue in this case, alleging the
CPs Identity is necessary for his defense. (Doc. 22). The government opposes Pettaway's motion.
(Doc. 28).
The government has a privilege to withhold the identity of a Cl, but that privilege is
qualified. Roviaro v. United States, 353 U.S. 53, 59-60 (1957). “Where the disclosure of an
informant’s identity, or the contents of his communication* is relevant and helpful to the defense
Of an accused or is essential to a fair determination of a cause, the privilege must give way." Id.
at 60-61, The court must balance “the public interest in protecting foe flow of information against
foe individual’s right to prepare his defense.” Id at 62, The court principally considers three
factors: “(1) the extent of foe informant's participation in foe criminal activity; (2) foe directness
of foe relationship between foe defendant's asserted defense and foe probable testimony of foe
informant; and (3) the government's interest in nondisclosure.” United States v, Fiores, 572 F.3d
1254, 1265 (1 lfo Cir. 2009) (citation and internal quotation marks omitted).

Pettaway Appendix E1

Case 2:18-cr-00586-ACA-JHE Document 34 Filed 03/07/19 Page 2 of 4

Although Pettaway supplies little in the way of his version of the factual background of
this case, his first justification for disclosure of the Cl’s identity is that he believes the informant
played a prominent role in the criminal activity alleged, (doc. 22 at 3). an argument directed
towards the first factor in the Flores analysis. Pettway states he believes the Cl was present at the
search location when the search warrant was executed, caused Pettaway’s own presence at the
search location, and that the Cl possessed the cocaine that was found during the search. Id. The
government flatly denies the Cl was present at the search location and that he or she took part in
die charged criminal activity, (Doc. 28 at 3-4).
At a hearing on Pettaway’s motion for bond, (doc, 23), Pettaway’s counsel disclosed that
a list of persons present at the search location produced in discovery in a state criminal case did
not align with the list produced in this case, leading him to believe that the person missing from
die discovery in this case could be the Cl. Subsequently, the undersigned directed the parties to
confer to determine whether that information should be considered by the court in ruling on the
motion to compel. (Doc. 30). The undersigned set a March 4, 2019 deadline for the parties to
supplement their pleadings. (Id.). Only the government responded, indicating the person present
at the scene but inadvertently omitted from discovery provided to Pettaway in this case is not the
Cl. (Doc.32). Consequently, Pettaway’s belief appears to be unfounded. Further, neither party
has provided the affidavit supporting the search warrant, but the government represents (and
Pettaway does not deny) that the information provided to law enforcement by the Cl is that he or
she knew Pettaway to be a cocaine dealer, had recently been at the search location, and had seen
cocaine being kept, concealed, and distributed. (Id. at 2). None ofthis implicates the Cl in criminal
activity, and the first Flores factor cuts against disclosure.

2

Pettaway Appendix E2

Case 2:18-cr-00586-ACA-JHE Document 34 Filed 03/07/19 Page 3 of 4

Pettaway’s second argument is that the Cl’s identity is relevant to his defense, (doc, 22 at
3), which relates to the second factor. Pettaway does not specifically explain how the CT’s
testimony would support his defense, nor what he expects that testimony to be. Pettaway’s
argument the Cl’s testimony would aid in his defense springs from his belief that the Cl was
present at the search location, as Pettaway simply states the Cl’s testimony "would be directly
related and essential to Pettaway’s claim of innocence” due to “the informant’s role in the criminal
activity.” (Doc, 22 at 3). The absence of a reason to conclude the Cl was at the search location
sweeps the foundation from under Pellaway’s argument. Further, it is Pettaway’s burden “to show
dial the informant ’ s testimony would significantly aid in establishing an asserted defense.” United
States v. Gutierrez, 931 F.2d 1482, 1491 (11th Cir. 1991) (citation omitted). Pettaway may not
meet that burden and compel disclosure sim ply by speculating as to the possible relevance of the
Cl’s testimony, as he has done here. See id The second fector weighs against disclosure.
Pettaway does not address the third factor, but the government offers a general contention
it has a legitimate interest in protecting the safety of any Cl. Regardless of whether this is enough
to support the government’s interest in nondisclosure (that "disclosure might endanger the
informant or other investigations,” Flores, 572 F.3d at 1265), it does nothing to tip the scales given
Pettaway’s failure to support the first two factors with a basis for disclosure. Nor is there any other
factor supporting disclosure. Therefore, Pettaway’s motion, (doc. 22), is DENIED.
DONE this 6th day of March, 2019.

JOHN H. ENGLAND, HI
UNITED STATES MAGISTRATE JUDGE
3

Pettaway Appendix E3

Case 2:18-cr-00586-ACA-JHE Document 34 Filed 03/07/19 Page 4 of 4

§>■

■4

%

4

Pettaway Appendix E4

e

K

•a,

i,

